<html>
<title> - COUNTERING THE VIRTUAL CALIPHATE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                    COUNTERING THE VIRTUAL CALIPHATE

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 23, 2016

                               __________

                           Serial No. 114-192

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE
20-531PDF                      WASHINGTON : 2016                         
                                 
                                 
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e186918ea18294929589848d91cf828e8ccf">[email&#160;protected]</a>  
                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Seamus Hughes, deputy director, Program on Extremism, Center 
  for Cyber and Homeland Security, George Washington University..     5
Aaron Lobel, Ph.D., founder and president, America Abroad Media..    13
Peter Neumann, Ph.D., director, International Centre for the 
  Study of Radicalisation, Department of War Studies, King's 
  College London.................................................    26

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Seamus Hughes: Prepared statement............................     7
Aaron Lobel, Ph.D.: Prepared statement...........................    16
Peter Neumann, Ph.D.: Prepared statement.........................    28

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York: Prepared statement......................    45

 
                    COUNTERING THE VIRTUAL CALIPHATE

                              ----------                              


                        THURSDAY, JUNE 23, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order and the 
subject here is combating what we call the virtual caliphate on 
the Internet.
    Unfortunately, there is an irony in the effort to combat 
ISIS recruitment online and that is that the United States, 
which is the world's leader in technological innovation, is 
hardly in the game.
    To protect Americans at home and abroad, this has to 
change. So great has been the explosion of slick and 
professional ISIS videos online that, as I indicated, a lot of 
people are referring to this as the virtual caliphate. Because 
within seconds, ISIS can reach a global audience using popular 
social media sites, disseminating hateful propaganda to recruit 
new fighters and promote its extreme ideology.
    And more and more, the virtual caliphate is calling on its 
followers not necessarily to go to Syria or Iraq or Libya now 
but to take up arms and attack where they are at home.
    ``The smallest action you do''--in their words--``the 
smallest action you do in their homeland is better and more 
enduring to us than what you would if you were with us.'' That 
is the refrain. That is the message being pounded into would-be 
jihadists and it is a message that is being pounded into many 
Americans and we know that terrorists consumed Islamist 
propaganda over the Internet. The attacks in Brussels, San 
Bernardino, Orlando, Paris, those are tied to ISIS' online 
efforts based on the sites visited by those undertaking these 
terrorist attacks.
    Indeed, ISIS' online dominance is just as critical to that 
organization as the large amounts of territory that it controls 
in Iraq or Syria or Libya or other training bases that they 
have set up.
    Unfortunately, the pace of our ``cyber bombs,'' as we 
sometimes call them--the counter battery work that we do, that 
we are dropping on ISIS' virtual sanctuary to take out these 
Web sites--is like our campaign on its physical territory. It 
is slow and it is inadequate to this task.
    The State Department's efforts to respond to extremist 
content online are woefully inadequate. Its Center for 
Strategic Counter Terrorism Communications was designed to 
identify and respond to extremist content online. Yet because 
its communications were ``branded'' with the official State 
Department's seal, they fell on deaf ears. It is not effective 
to use the State Department seal when you are doing a 
counterterrorism narrative.
    In March, the President issued an Executive order to revamp 
this effort, renaming it the Global Engagement Center and 
giving it the mission to lead the government-wide effort to 
``diminish the influence of international terrorist 
organizations,'' as we said. The committee will soon hear from 
the administration how this effort differs from past failures.
    But unfortunately, in public diplomacy as we know--and this 
is pretty widely the view--our public diplomacy efforts on 
electronic media, on social media have really been pretty much 
a bust--dysfunctional in the analysis of former State 
Department personnel who have taken a good long look at this.
    At a basic level, key questions remain, including the type 
of message that would be most effective in the face of this 
virulent ideology. Some suggest that the voices of disaffected 
former jihadists are particularly potent in deterring future 
jihadists. These are individuals who quickly discovered that 
life under ISIS is not the utopia they were promised. Or the 
voices of former radicals--Ed Husain with his book ``The 
Jihadist.'' I read that lively account and it is clear that it 
is having quite an impact with young people, creating a lot of 
second thoughts about where this ideology is leading.
    But if this is the message, how should it be delivered? 
Should the Federal Government produce and disseminate content? 
Is the Federal bureaucracy equipped for such a fast-moving 
fight? Does any association with the State Department mean this 
message is dead on arrival, as we found with the, you know, 
State Department indicia or the State Department title put out 
there as part of the narrative?
    A more effective approach could have the U.S. Government 
issuing grants to outside groups to carry out this mission. 
This would have the advantage of allowing the U.S. Government 
to set the policy, but put those with the technical expertise 
and credible voice in the driver's seat here in delivering the 
message. After all, such separation and distance from the U.S. 
Government have helped our democracy promotion programs through 
the National Endowment for Democracy work in areas of the globe 
where official U.S. support just isn't feasible.
    We also want to make use of emerging technologies that can 
automatically detect and remove extremist content online. I am 
aware that the private sector is working quickly to develop 
these types of programs, and admittedly, all this isn't easy. 
If it was, we'd be much better positioned going forward. But if 
we don't come to grips with the virtual caliphate now, this 
long struggle against Islamist terrorism will extend even 
longer, with great loss of life.
    So I now turn to our ranking member, Mr. Brad Sherman from 
California, for any statement he may have.
    Mr. Sherman. Thank you, Mr. Chairman. There are events 
going on the floor yesterday and today. It is not the House at 
a high point of bipartisanship and order, and we can argue 
about who's to blame.
    But when we come into this room, Mr. Chairman, we do see a 
high point of bipartisanship and order and the credit, clearly, 
goes to you and the ranking member. The ranking member cannot 
be here, at least at the beginning of this hearing, and I have 
an improvised opening statement. I had nothing prepared walking 
in so let us see whether any of these comments are helpful.
    First in this issue we face the issue of whether to take 
down the terrorist message or leave it up and monitor, and I 
want to say almost always take it down.
    First, the theory of fast and furious, let them take the 
guns and we will monitor what happens with the guns did not 
work then and the idea of let them leave the dangerous site up 
and let us monitor what happens may not work in the future.
    But in addition, the terrorists know we are watching and 
they have decided--and they have been pretty good at this--that 
putting their message up publically is helpful notwithstanding 
the fact that we are monitoring it.
    We ought to take it down. That means we need the 
coordination and cooperation of the industry. It was just about 
a year ago that Chairman Royce, Ranking Member Eliot Engel, Ted 
Poe, and I called upon Twitter to update its terms of service 
and take the terrorist message off Twitter.
    Twitter was reluctant a bit at first but in April 2015 
Twitter announced changes to their terms of service, added a 
new language to its stance on abusive behavior and adding the 
words ``threatening or promoting terrorism'' and they have 
substantially improved.
    I should note that since Twitter changed its policies the 
terrorists have been forced onto other systems. Their tactic 
now involves direct messaging. I view that as a step forward. 
We closed off an efficient way to reach many people and now 
they have to try to use a less efficient system. But we now 
have to stop these direct messages.
    We also have to focus on their encrypted chat apps--
Telegram, Surespot, Theema--which seemed to have been created 
precisely for the market of people who want to evade law 
enforcement and I wonder why such products exist.
    Next issue, and one that I have talked in this room an 
awful lot about, is the need to have people who know the 
language of the people we are trying to influence and I don't 
just mean studied Arabic in college. I mean a cultural 
understanding and an understanding of Islamic theology, Islamic 
jurisprudence, and Islamic history. Again and again the State 
Department has testified in this room that they don't have 
anybody who they have hired specifically because that person 
has the expertise in those areas whereas they have dozens of 
experts in arcane European diplomatic law as if the Austro-
Hungarian Empire is the greatest concern of American foreign 
policy.
    I am not saying that we should be issuing fatwas out of the 
State Department but we ought to have somebody who has read 
1,000 fatwas working in the State Department and someone who 
knows the difference between what is accepted as a good hadith 
and what is not.
    And the reason for this as our target audience is people 
who think they might want to kill innocent women and children. 
These are people who start from a very bizarre mindset. They 
are thinking of becoming terrorists.
    They don't necessarily see the world the way we do 
translated into Arabic or translated into another language. 
These are people for whom evil consists--the word evil may not 
include killing a Yazidi family or torturing people or throwing 
gay people off of tall buildings.
    They may live in a world where they think the Koran says 
that is what you're supposed to do. We have to have people that 
can go into that world. Not just the cyber world but the 
psychological world, and demonstrate to them that this is a 
perversion of Islam that has been focused by the terrorists.
    For staffing, we need to look at whether it should be 
uniform military or civilian or some new status that is in 
between. And finally, Mr. Chairman, what happens over there 
comes over here. What happens in Raqqa doesn't stay in Raqqa.
    An important part of turning back the cyberterrorist threat 
is to deal with ISIS on the ground and that will require 
changing and the administration is beginning to change the 
rules of engagement so that we can hit strategic targets, doing 
our best to avoid civilian casualties but not with the view 
that a single civilian casualty--the possibility of one stops 
any particular attack.
    The ranking member has a statement prepared for delivery 
and I request that we make it part of the record.
    Chairman Royce. Without objection.
    Mr. Sherman. I yield back.
    Chairman Royce. Thank you very much.
    This morning we are pleased to be joined by a distinguished 
panel. We have Mr. Seamus Hughes. He is the deputy director of 
the George Washington University Program on Extremism. Mr. 
Hughes previously served at the National Counter Terrorism 
Center.
    We have Dr. Aaron Lobel. He is the founder of America 
Abroad Media, a nonprofit dedicated to promoting the exchange 
of ideas to critical thinking and to self-government worldwide. 
Prior to founding this organization, Dr. Lobel was a research 
fellow and professor at multiple institutions.
    Dr. Peter Neumann is professor of security studies at the 
Department of War Studies at Kings College London. He served as 
director of the International Centre for the Study of 
Radicalization since its founding in early 2008.
    So without objection, the witnesses' full prepared 
statements will be made part of the record and members will 
have 5 calendar days to submit statements and questions and any 
extraneous material for the record.
    Mr. Hughes, we will start with you. If you could please 
summarize your remarks in 5 minutes.

  STATEMENT OF MR. SEAMUS HUGHES, DEPUTY DIRECTOR, PROGRAM ON 
   EXTREMISM, CENTER FOR CYBER AND HOMELAND SECURITY, GEORGE 
                     WASHINGTON UNIVERSITY

    Mr. Hughes. Thank you. Chairman Royce, Ranking Member 
Sherman, distinguished members of the committee, it is a 
privilege to be invited to speak here today.
    There are at least 900 active ISIS investigations in all 50 
States. An estimated 250 Americans have attempted to or have 
travelled to Syria and Iraq to join groups like ISIS. The 
program in extremism has identified 91 people who have been 
charged with ISIS-related offenses in the last 2 years.
    Homegrown terrorism is an apt description, as the 
overwhelming majority of these individuals are U.S. citizens 
born and raised here. There is no typical profile of an ISIS 
recruit. They are old. They are young. They are rich. They are 
poor. College educated and they are high school dropouts.
    The United States, with its notable exceptions, does not 
have extremist organizations providing in-person ideological 
and logistical support to individuals drawn to the jihadi 
narrative.
    As a result, American ISIS sympathizers are forced to find 
like-minded communities online. ISIS sympathizers use the 
online environment in a variety of ways.
    First, of course, they use it to push the propaganda. 
Second, ISIS recruiters act as spotters to identify and groom 
would-be recruits. Third, they provide logistical support for 
would-be recruits. Finally, they encourage Americans to commit 
attacks here in the homeland.
    ISIS supporters are very active and persistent online. 
Despite repeated removal from social media sites for violating 
terms of service, sympathizers routinely return to these 
platforms with new accounts.
    A prime example of that is a recently arrested American 
woman who operated at least 97 Twitter accounts before her 
arrest.
    There is a well-used but decentralized system that provides 
a level of resiliency to these online social networks. Using 
Twitter as an example, there is an ISIS shout-out account that 
announces newly created accounts of previously suspended 
accounts, allowing a person to essentially build back their 
network online.
    However, it is important to note that ISIS network on 
Twitter has declined substantially since 2014 as a result of 
sustained suspensions. An overt English language ISIS-support 
network is nearly gone from Facebook but they still use it 
occasionally to mount campaigns and for person-to-person 
communications.
    The English language ISIS echo chamber is now mostly 
concentrated on Telegram where they can more easily congregate. 
ISIS radicalization is by no means limited to social media. In-
person relationships still matter a great deal.
    It is an over simplification to say that Internet 
radicalization is the main factor driving American ISIS 
supporters. Rather, in most cases online and offline dynamics 
complement one another.
    In 1998, Osama bin Laden faxed his declaration of war to 
the West. It would rightly be seen as naive to contend that fax 
machine radicalization was a key driver for al-Qaeda's early 
recruitment.
    A similar dynamic plays out 18 years later. The State 
Department and USAID have released a countering violent 
extremism strategy. The State Department has also expanded the 
mission of the Bureau of Counter Terrorism to now include 
proactive CVE programs.
    While a step in the right direction, time will tell whether 
this new focus on preventative programming will result in a 
tangible shift in resources and personnel.
    Recently, the State Department also reorganized to address 
the changing nature of ISIS vis-a-vis the Internet. The newly-
formed Global Engagement Center--the GEC--represents a 
recognition that previous efforts needed to be adjusted. 
However, the bureaucratic and structural issues that hampered 
and plagued GEC's predecessor are still present. The GEC may be 
limited in its online engagement by legal restrictions on 
collecting personal information. Working with civil rights and 
civil liberties groups, the committee should consider 
legislative fixes that allow the GEC some limited exemptions 
from the Privacy Act requirements.
    There is also a noticeable push to empower local partners 
to provide counter messaging. In conversations with these 
partners, many have expressed a concern that engaging with 
known or suspected terrorists online may unduly place them 
under law enforcement suspicion.
    The administration should consider providing the legal 
guidance to potential counter messengers, religious leaders 
around the country so they can make informed decisions on 
whether and how to engage online.
    And technology companies have in the past been pushed by 
Congress and the public to expand and enforce their terms of 
service. That is right.
    But the U.S. Government should use its convening authority 
to bring together civil society partners who want to perform 
counter messaging but don't understand the technology with 
social media providers who understand their platform but don't 
understand the nuances of counter messaging.
    Thank you for an opportunity to testify. I welcome your 
questions.
    [The prepared statement of Mr. Hughes follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Chairman Royce. Thank you, Mr. Hughes.
    Dr. Lobel.

STATEMENT OF AARON LOBEL, PH.D., FOUNDER AND PRESIDENT, AMERICA 
                          ABROAD MEDIA

    Mr. Lobel. Thank you, Chairman Royce, Ranking Member 
Sherman and distinguished members of the committee for inviting 
me to testify today, and thank you for your leadership and the 
example of bipartisanship you set on this committee.
    It is so critical because in the long run America will only 
be successful in countering the ideology of Islamic extremism 
if our policies have bipartisan support.
    As the founder of America Abroad Media, I have spent almost 
a decade and a half developing partnerships with major media 
channels in the greater Middle East. Based on my experience, I 
would like to summarize my written testimony and underscore two 
main points today.
    First, the focus of U.S. strategy should be on enabling, 
supporting, and amplifying the indigenous voices for progress 
in the greater Middle East. This approach will yield far better 
results than trying to manage a counter messaging campaign from 
Washington.
    Second, the best way for the U.S. Government to support 
those in the Middle East who share a vision for positive change 
is by mobilizing the creative power of America's leading 
institutions--Hollywood, Silicon Valley, our philanthropy, our 
NGOs, and our universities--so they can collaborate directly 
with their counterparts in the region.
    From my own experience, I can tell you there are many 
people in the Middle East today pushing for greater progress 
and pluralism and there is a critical mass of them in the 
media.
    The most popular TV channels in the region reach tens of 
millions of people and have the highest credibility with their 
audience. Several of these channels are producing programs that 
seek to promote the values of pluralism and counter extremist 
narratives.
    For example, one of our partners is the largest Pan-Arab 
channel--the largest--the Saudi-owned Middle East Broadcasting 
Center (MBC). It is currently developing a large scale, 20-plus 
episode, anti-ISIS drama series based on real stories of young 
men and women who left their homes to join ISIS only to 
discover the reality behind their propaganda.
    Last year, MBC aired a hit anti-ISIS comedy called 
``Selfie'' which used the power of satire to expose ISIS 
hypocrisy. It was the number-one Ramadan show in the Gulf and 
had an audience exceeding 25 million.
    Simply put, no U.S. Government channel or program in the 
Middle East, no matter how well intentioned or well produced, 
can come close to delivering this kind of reach or impact.
    Young people in the Arab world today watch all the 
Hollywood movies and Turkish soap operas. But what they really 
want are more of these MBC-style shows, original Arabic 
language drama and comedy that reflects their own cultural 
storylines and meets the highest international standards.
    And the creative community there have told me directly they 
want Hollywood support and guidance in order to develop more 
shows that meet their audiences' expectations.
    They are asking for Hollywood writers to help them hone the 
storytelling and script writing skills that make American shows 
so successful. They want to learn from Hollywood's experience 
in order to develop world class Arab television and film.
    My organization has already begun to help with this effort. 
I recently returned from a trip to Abu Dhabi with three of 
Hollywood's best storytellers, the award-winning producers and 
writers Ben Silverman, Greg Daniels, and Howard Owens. Happy to 
tell you more about them.
    They led workshops with Arab TV and film writers and met 
with more than 100 of their counterparts in the creative 
community to share ideas for producing world class Arab drama 
and entertainment.
    With more collaborations of this kind, we can unleash the 
creativity of Hollywood to help the Middle East develop a 
transformative entertainment industry that reaches tens of 
millions of people--of their people--with stories of hope and 
aspiration and advances the values we share.
    In fact, the State Department has already taken some 
promising initial steps to catalyse greater Hollywood 
involvement in the Middle East. Last month, under the 
leadership of Under Secretary Rick Stengel and Assistant 
Secretary Evan Ryan, the State Department convened a meeting of 
high-level Hollywood talent, including our partners Ben 
Silverman and Greg Daniels, to discuss these very issues.
    In addition to this convening power, catalytic funding from 
the U.S. Government could also make a tremendous difference. 
Due to low advertising rates, the entertainment market in the 
Middle East today is not commercially sustainable.
    The U.S. Government could play a vitally important role by 
providing significant funding through grants and contracts that 
will enable the best creative content to succeed and become 
commercially sustainable.
    With high-level attention, our Government can also inspire 
America's best philanthropic institutions to play a key role. 
For example, the John Templeton Foundation is already engaged 
in the Middle East through its well-respected Islam Initiative.
    Several of our other leading foundations, such as Carnegie 
Corporation and the MacArthur Foundation, could all join 
together and have an enormous impact.
    The vision I am outlining here is not new. In 2002, the 
Advisory Group on Public Diplomacy for the Arab and Muslim 
World, chaired by former U.S. Ambassador Ed Djerejian, wrote,

        ``An attractive, less costly alternative or supplement 
        to U.S. Government broadcasting would be the aggressive 
        development of media programming in partnership with 
        private firms, nonprofit institutions, and government 
        agencies both in the United States and the Arab and 
        Muslim nations.''

    This programming can then be distributed through existing 
channels in the region. In the aftermath of the horrific 
Orlando attack, our country sorely needs a nationwide effort 
catalysed by our Government to counter the ideology of 
extremism.
    But rather than trying to fight this ideology on our own, 
we should be empowering and amplifying voices that speak to the 
Muslim world more authentically and more directly. These voices 
exist and the media of the Middle East are ready to broadcast 
them. The United States should reach out to support and 
catalyse such programming.
    Thank you for the opportunity to testify before your 
committee today.
    [The prepared statement of Mr. Lobel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Chairman Royce. Thanks, Dr. Lobel.

  STATEMENT OF PETER NEUMANN, PH.D., DIRECTOR, INTERNATIONAL 
   CENTRE FOR THE STUDY OF RADICALISATION, DEPARTMENT OF WAR 
                 STUDIES, KING'S COLLEGE LONDON

    Mr. Neumann. Thank you, Chairman Royce, Ranking Member 
Sherman, distinguished members of the committee. I appreciate 
the opportunity to talk about countering the propaganda of 
groups like I saw on the Internet.
    My team and I in London have dedicated the past 4 years to 
understanding why young Muslims from Western countries are 
fighting with the jihadist groups in Syria and also why some of 
them are staying home, becoming inspired by jihadist 
propaganda, and end up attacking their own countries.
    Based on this research and based on our accumulated 
knowledge about these people, some of whom are very dangerous, 
let me use this opportunity to make a couple of points each on 
the way that ISIL is using the Internet, how to counter their 
narrative, and finally what government needs to do to be more 
effective in this space.
    Let me start by addressing how ISIL is using the Internet. 
ISIL has been more successful in exploiting the Internet than 
any group I have seen in 17 years of researching terrorism.
    As many have pointed out, the sophistication of some of its 
products, the range of platforms it uses, the way it segments 
according to audiences, and how it has succeeded at times in 
dominating the conversation, all of this is unprecedented.
    But--and that is my second point--the online ecosystem of 
ISIL goes beyond the group itself and includes more than just 
the videos that we are always talking about. What gives ISIL so 
much punch online are also, for example, individual fighters 
who facilitate one-on-one conversations.
    It is also what we call the cheerleaders and fan boys and 
wannabes--people who aren't actually members of ISIS who are 
not based on Syria but are essentially freelance supporters 
often based in the West. They are the ones who are giving the 
group its online oomph. As far as online is concerned, what we 
are taking about is not just a group. It is what one of my 
colleagues, Dr. Nico Prucha, described as a swarm.
    So how do we counter this swarm? I want to focus on the 
question of counter narratives. First point, there isn't one 
counter narrative and there isn't one counter narrator. Just 
like ISIL is segmenting its message according to audiences, you 
need to recognize that people are becoming attracted to ISIL 
for different reasons, have different interests, and are 
different points along the path of radicalization.
    Some will indeed listen to a Salafi sheikh. Others are more 
receptive to a former jihadist and yet others are receptive to 
a movie star. Credibility, though, ultimately comes from 
authenticity and that is why the most credible messengers, in 
my view, are young people who are just like the ones whom ISIL 
is trying to recruit. We need more of them online.
    And that brings me to my next point. To counter a swarm, 
you need a swarm. What's needed is scale. Scale, in my view, is 
more important than message.
    Even if we found the perfect message, the perfect 
messenger--even if we managed to produce the perfect video, it 
would still be a drop in the ocean. There still wouldn't be 
enough oomph.
    This is the Internet. People are exposed to thousands of 
things every day. To get your message through, you need to be 
loud, you need volume and you can't be on your own.
    Rather than getting every single thing right, the emphasis 
should be on getting stuff out. I want to close with two quick 
observations on how government can be more effective in this 
space.
    First, government alone will never be able to create the 
volume that is needed. It is not a credible messenger in this 
space and, worst of all, government is by definition risk 
averse, which is the opposite of what you need to have--what 
you need to be online.
    For that reason, I wholeheartedly support the change of 
approach that's happened earlier this year--away from 
government-centered messaging toward empowering and working 
with partners--industry, NGOs, media companies, grassroots 
organizations, maybe even philanthropists who, by the way, 
haven't been doing enough in this space to sponsor hackathons, 
competitions, training, campaigns or setting up an independent 
online fund where people can go for small grants and lots of 
them.
    Facebook recently set up an organization in Germany called 
OCCI, the Online Civil Courage Initiative, which has been 
designed precisely to counter extremist speech online. We need 
more of that and whatever government can do not to run them but 
to help them bring about it should do.
    My final point--we need more data. It is almost an 
embarrassment. It is an embarrassment for everyone who works 
and is interested in this area. But we really still do not know 
what works. The initiatives that have happened have been so 
small scale and few in number they haven't generated enough 
data to make meaningful assertions.
    This must be a priority for industry, for government, for 
NGOs running programs, and for all of them together.
    Many thanks.
    [The prepared statement of Mr. Neumann follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Chairman Royce. Thank you, panel. Thank you very much for 
your testimony here and Mr. Neumann, thank you for coming a 
long way for that testimony.
    So I have a couple of questions just in terms of this 
radicalization process. How important is religion as a 
motivating force here? Is this a situation where ISIS recruits 
are often nonreligious or somewhat religious, moderately so, 
and then they are converted and indoctrinated through a process 
on the Internet over the course of recruitment?
    Or is it more often a case where you have radical young 
men? I remember talking to one of the French officials after 
the attack, telling me that 30 percent of their people were 
French converts, often in prison, that didn't even know Arabic 
but get converted and sort of the concept here that they were 
people disposed to violence in the first place, simply 
susceptible or actively accepting anything that was a 
rationalization to carry out violence. What are some of the 
perspectives here?
    Mr. Hughes. The short answer is it depends. We have seen 
cases in the U.S. where an individual essentially converts to 
ISIS, not Islamism, and there is a distinct difference between 
Islam and Islamism.
    I think it is important to say that. But when you look at--
we've also had cases of people that are, you know, Hafiz and 
have grown up in the faith and are steeped into it and then 
decide to join ISIS. So each case is very different on it.
    The U.S. context, we've had 91 individuals arrested for 
ISIS-related activities. Of that data set, 38 percent were 
converts to the faith, which is a higher percentage than the 
general population of American Muslims, which are about 23 
percent, depending on how the data shakes out.
    So there is a phenomenon there that is worth looking at. We 
have seen from our research of the program on extremism a 
number of individuals who are recent converts to the faith that 
are reaching out on Twitter and asking questions and ISIS 
spotters are realizing they are naive and they are answering 
those questions in a very innocuous way on religion. And over 
the course of a few weeks they are answering that and then they 
slowly introduce Islamic ideology into the conversation. So 
they have already built in there authenticity in these 
conversations.
    So there is a dynamic in play there and it also in terms of 
de-radicalization or disengagement the role of religion depends 
on the individual.
    Sometimes it may be, like Peter said, the Salafist imam 
who's the most useful there but it also may be the soccer 
coach. It really depends on the individual.
    Chairman Royce. Well, my other question is, how important 
is the existence of the caliphate itself as an example, as a 
sort of a vision to their recruiting efforts?
    If we were to defeat ISIS on the ground, take out their 
terrorist training grounds everywhere from Raqqa in Iraq to 
Libya and east Africa where they have set these things up, if 
you reclaim those cities, if you occupied with those that were 
in deep camps now, if they came back and denied them the safe 
havens would they lose their appeal? Dr. Neumann.
    Mr. Neumann. Yes. I think it matters, but it matters not on 
its own. What happened in the summer of 2014 was, of course, 
that ISIS declared a caliphate.
    But whilst it was declaring the caliphate, it was basically 
running over the Middle East. It was conquering a different 
province of Iraq every week.
    And so a lot of the people who were sitting in Europe or in 
other countries who were receptive to this were thinking wow, 
it is actually happening--it is not just a formula--it is not 
just a matter of words--it is actually action that meets the 
formulation of words.
    And so that is what ISIS has always been about. It has been 
about the combination of a religious justification, however 
hollow we may think it is, in combination with the projection 
of strength and power and success. And I would argue the reason 
why so many people went in the summer of 2014 is because during 
that period ISIS really was projecting strength, power, and 
success and all these young people who were sitting in the 
suburbs of Paris or in disenfranchised parts of Brussels they 
were thinking, I can go from zero to hero in nothing if I join 
that group.
    I do think that if the U.S. and the coalition managed to 
retake Mosul and Raqqa it would be a big blow for ISIS. I don't 
think it will be that easy to just transfer everything over to 
Libya or to another place.
    Chairman Royce. I know, but they have--we were up there in 
Tunisia talking to the Libyan Ambassador and our Ambassador in 
Libya. They've got 6,500 or 6,700 fighters that are training 
there now and then there are other training centers they are 
setting up.
    So they have sort of branched out in the interim. But if we 
could attack the training centers or some coalition could take 
out those training camps, my thought or my argument has always 
been we should have done this at the outset with air power to 
deny them the opportunity to message that they were on the 
march and unstoppable.
    Let me ask you about emerging technologies out there that 
could be used to weed out extremist content online, if that 
offers some hope and maybe throw in for Mr. Hughes here--he 
made one statement here that seemed contradictory.
    You noted in your testimony that State Department employees 
should have greater interaction with ISIS supporters online. 
Yet we've--our past experience with that was one that was a 
disappointing outcome because they didn't have credibility 
among would-be jihadists. So if I could throw those two 
questions out to the panel.
    Why would that model work now? What should they do 
differently to make it work?
    Mr. Hughes. A couple reasons why I think that model didn't 
work before. One was that it wasn't interactive, meaning it was 
one-off kind of events.
    So if you actually want to introduce, you know, some seeds 
of doubt, what you're doing on that is building a relationship 
or a rapport back and forth. That takes time.
    The reason why that wasn't successful before is because it 
had to go through six, seven, eight layers of bureaucracy to 
say, can I tweet this 140 characters to this individual, right? 
That's just not how the online environment works.
    There's two reasons why I think that the U.S. Government 
shouldn't completely get out of the game when it comes to 
interactive back and forth.
    One is, again, you need to essentially not cede the space, 
and two, is there is some benefit when you're talking about 
hardened ISIS supporters spending their time focussing on the 
State Department as opposed to focussing on creating content, 
videos, and things like that. It muddies their time up a little 
bit and we do see that dynamic play out.
    So I would focus the State Department's overt messaging on 
the guys that raise their hands and say they are ISIS 
supporters and then there is a whole spectrum of other options 
between, you know, white overt, State Department to gray, 
delayed attribution that DoD can do and then the black that CI 
can do to counter messaging. And we need to make sure those are 
coordinated a little bit better than they had in the past.
    Chairman Royce. Quick question to you of the assessment of 
Dr. Lobel's thesis there because they--what he's doing is 
televising cinema that challenges extremist ideology and 
Pakistan--they are doing that, I guess, now in the Middle East 
trying to promote religious tolerance, trying to hit on this 
theme of political moderation and pluralism, I guess, and 
disseminate democratic culture, basically. Your assessment on 
that?
    Mr. Hughes. I have seen Aaron's work. It is phenomenal. 
There's a spectrum in terms of communication. You have the 
targeted messaging just on this issue, right. But there is also 
broad based messaging that is more in tune and more useful to 
come from partners that Aaron works with, right, because 
governments by their very nature are very hesitant to get into 
this idea of religion, establishment clause, things like that.
    It makes everyone very uncomfortable. That's where civil 
society and partners can play a role. Let's address the mood 
music that causes people to want to be drawn to the ideology 
itself and then let us slowly move down the spectrum.
    Chairman Royce. I am going to ask the panel in writing just 
for emerging technologies. You can give that to us later. I am 
out of time and I need to go to Dr. Ami Bera of California.
    Mr. Bera. Thank you, Chairman Royce.
    You know, fascinating testimony and something that we've 
talked about in this committee quite a bit. You know, we are--
we do feel like we are losing the counter propaganda war. We're 
losing that battle on social media and on the Internet.
    You know, I think--Mr. Hughes and Dr. Neumann, you both 
touched on how, you know, ISIL and other radical jihadists are 
able to create this conversation in an ongoing, almost organic 
way.
    Dr. Neumann, you used the term creating the swarm, and the 
way to counteract that swarm is to have a swarm that is putting 
a counter narrative out there--that is, dispelling some of 
these myths, using technology.
    Now, Mr. Hughes, you talked about the importance of this--
you know, fostering the environment for this to happen but some 
of it being organic, coming out of the community and, you know, 
partnering that with--you know, the community members may not 
know how best to use technology but partnering that with the 
technology support so they can get that counter narrative out.
    You know, I think a fundamental thing that is breaking down 
is--I talked to, you know, in Sacramento our homeland security 
folks, our local law enforcement--is there has to be a 
partnership between, you know, the Muslim community locally and 
the folks that are charged with trying to identify folks that 
may be on a path to getting radicalization but so you can 
intervene quickly and that seems to be breaking down right now 
and, you know, some of the rhetoric that we hear out there does 
not help the Muslim community reach out to others.
    You know, perhaps some thoughts on how best we can start to 
repair that because, again, in my sense if we want to 
counteract this narrative it is going to take the community 
that understands our culture, that understands the word and so 
forth.
    Partnering with, you know, whether it is technology 
support, whether it is local law enforcement, whether it is our 
homeland security folks, you know, Mr. Hughes, your thoughts.
    Mr. Hughes. Sure. I would just--my previous job was to 
community engagement with Muslim-Americans around the country. 
So for about 3 years I would go to mosque community centers and 
have very difficult but important questions and conversations 
about radicalization. Sacramento is an interesting case. I have 
been to Sacramento a number of times working with your local 
Muslim-American communities and a telling example of that was 
last year I was there and we were talking about the need to 
counter ISIS' propaganda.
    An imam of a local mosque raised his hand and said, you 
know, Seamus, I would like to do counter messaging and I would 
like to do that. And I said well, that is great, sir--what are 
you going to do. I am going to hold my phone up and I am going 
to record a lecture of me saying it and I am going to post it 
online.
    Sir, no one's going to watch that. It is going to be 6 
minutes long and it is not very interactive. But I tell you 
what, maybe I can connect you with the guys at Twitter or the 
individuals at Facebook and let us figure out a way where you 
have the message, it is very timely, and let us tie your video 
so it tags next to an ISIS video and things like that.
    You have this groundswell of people that want to do counter 
messaging but don't know how to work the system in a way that I 
think Congress and DC policymakers can help traverse that.
    And then the larger question about community engagement--
that is a difficult thing. You know, you don't build 
relationships 1 day at a time. It takes a very long process and 
I think the way that the administration is moving on this is 
that this idea of one-on-one interventions for individuals so 
instead of just arresting an individual because that is the 
only choice you have right now. I think if we bring in a third 
option in interventions you're going to see levels of trust 
built in between governments and communities.
    Mr. Bera. What is that third option of interventions?
    Mr. Hughes. And I would defer to Peter to talk a little bit 
about the European experience because they have had years of 
this. But this idea of an intervention space.
    So in the U.K. they have a channel program that has been 
revamped a number of times but it essentially connects the kid 
they are worried about with a mentor and Germany Hayat with 
social workers who help kind of train parents on how to talk to 
their kids.
    What we're essentially looking for is a non-law-enforcement 
approach, right. You bring a social worker, a mental health 
professional, a religious leader, any number of things--you 
bring them to the table and say this is a kid we are worried 
about--I don't have enough to arrest him or I don't want to 
arrest him because he's under the age of 18--you know, what are 
other options and everyone kind of gets around the table and 
figures it out.
    Mr. Bera. So we have actually had some of that conversation 
in Sacramento both with homeland security folks as well as 
our--the Muslim community locally because it is not just law 
enforcement approaching them.
    It could be that parent who is noticing changes in behavior 
in their child and, you know, doesn't want to go to law 
enforcement because they are worried, but they need someplace 
where they can go and someone who is trusted in the community 
who can intervene or it could be, you know, an imam. Dr. 
Neumann, if you want.
    Mr. Neumann. If I can just add one thing from the European 
experience because these intervention programs have run in 
different European countries with mixed successes. I think one 
lesson you can draw is that it is very important that it is not 
principally law enforcement and that is because parents will 
not call that hotline if they think that it is the police that 
is answering the phone and arresting their kid.
    They will call but they will leave it to the very last 
minute when it is usually too late. If you want them to call 
early when something can still be done you need to give them 
the confidence that their kid is not going to be immediately 
arrested and that is why it is important that in this early 
phase law enforcement is not involved, as hard as it is for law 
enforcement to let go.
    Mr. Bera. So it has to be someone who's trusted in the 
community that has that confidence because, you know, it could 
be a mental health issue that you have to intervene quite early 
on which, you know, could lead to some consequences down the 
road.
    Mr. Lobel. Congressman, let me go to a broader point, if I 
may. You know, when they looked at the radicalization process 
of one of the San Bernardino killers, her friends said, you 
know, when she was in college she wouldn't socialize. She spent 
all her time watching extremist television channels--24-hour 
television channels. I just want to echo some of the points 
made here that we should not focus exclusively on the online, 
and just two factors there.
    One, I just want to quote from the Crown Prince of Bahrain 
who was referring to both Sunni and Shi'a channels. He says, 
extremists spread their ideological message through a multitude 
of channels old and new.
    Satellite channels unseen by Western audiences and free of 
either its restrictions or regulations broadcast with far 
greater impact than the Internet, an almost continuous message 
of intolerance and venom to the ignorant and the susceptible. 
Some of the biggest social media successes--sustainable 
successes are television stars in the region who are on these 
channels.
    So I just wanted to make the point that I think there is a 
complementarity here between the different types of media and 
we need to be looking at all of it together.
    Mr. Bera. Fantastic. Thank you, and I am out of my time. 
Thank you.
    Chairman Royce. Thank you, Dr. Bera.
    We now go to Mr. Dana Rohrabacher from California.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman, and I 
have watched your career for a number of years and you seem 
always to have gravitated toward fighting the intellectual 
battle and making sure that the United States was fighting that 
part of the battle of ideas and concepts rather than just the 
battle of who can shoot and kill the enemy.
    We have experienced--this is fascinating. Thank you for 
your testimony from each of you today. We have lived through 
this before. I mean, it seems that fanaticism and which then 
accepts violence as a means to achieving fanatic goals is not 
new to this era of human history and we have--during the French 
Revolution we had people, you know, all of a sudden things went 
haywire and the struggle for liberty became the, let us say, 
guillotine anybody who speaks against the revolution, which 
then meant anybody who was just in some way opposing some of 
the concepts that were being discussed. Mao Tse-tung, Pol Pot, 
you name it--we have had these people who for some reason were 
able to mobilize large numbers of people to slaughter people 
who were basically innocent people.
    This is--not to mention Hitler and his ilk, and how do we 
deter that in this modern age. I will tell you that, being a 
writer myself I especially--is it Lobel?
    Mr. Lobel's concepts were very--I had not heard your 
presentation before. Who actually is paying for these things 
that you are doing already with this, sending groups of writers 
and things like that? Who's financing that?
    Mr. Lobel. Over the years our organization has had a range 
of funders, largely private foundation supporters and we have 
also received some U.S. Government funding as well.
    Mr. Rohrabacher. Okay. So that's--well, that is to be 
commended, I will have to say. But either we are going to 
change--what we are up against is, as I say, another type of 
fanaticism that has emerged and where you have fanatics who are 
willing to commit violence in order to achieve their ends what 
you end up with is terrorism and it takes a real fanatic to be 
able to murder someone who doesn't have a gun and someone who 
is just there and just a human being who happens to be in the 
middle of a situation, especially if the ideas you're going to 
promote what you believe is the truth--the ultimate truth--by 
terrorizing populations into submission to that truth.
    And it seems to me that's what we have here. So I thank you 
very much, Mr. Chairman, for this. You have been very 
provocative today. I don't really have any specific questions. 
That one question is who financed it--can we count on private 
financing to fight this battle?
    Mr. Lobel. Well, I think the government can play an 
important role by catalysing that, by--it can mobilize the 
private sector. It can mobilize patriotic individuals in this 
country who I think recognize the danger and are willing to 
step up and I think there are some who feel like they haven't 
been asked.
    So that's why I think there is an important role that can 
be played here in Washington by our Government in helping. So I 
think the short answer to that is yes.
    But sometimes you need that initial start, that venture 
capital funding, if you will, particularly because of some of 
the commercial challenges in the region.
    Mr. Rohrabacher. You know, at times when the government 
takes over jobs like this they have to reach so many 
compromises within an editorial concept that everything comes 
out mush and they are not able to really hit the points that 
need to be hit.
    So I would think that we should be encouraging, Mr. 
Chairman, as many people in our private sector and throughout 
academia and elsewhere to actually get directly involved in 
this effort to reach out to those fanatical elements in the 
world today that threaten the rest of us and perhaps reach out 
to them in a variety of different ways. So I sure appreciate 
your testimony and----
    Mr. Lobel. I would just say quickly, Congressman, that if 
you look--it is striking when you read the history of the Cold 
War is how often projects were launched that really directly 
involved the best of America's private sector and civil 
society.
    That is striking. I don't think we have achieved that 
equivalent in the 15 years since 9/11.
    Mr. Rohrabacher. One last thought on that.
    I remember very well when I thought that we were going to 
at that point win the Cold War. I mean, at one point in my life 
I thought--I was sure that Communism would end up dominating 
this planet including the United States.
    But at that moment, Mr. Chairman, when I realized that we 
were going to win is when they started doing commercials making 
fun of Russia--of the Soviet Union.
    And remember the babushkas were coming out in their 
swimming suits and then it was their dress suits and it was all 
the same suit, right? And what we need to do is perhaps reach 
that point with the fanatics--with religious fanatics--whatever 
they are, but Islamic in particular because it's there and 
engaged with that violence as making sure that violent 
fanaticism is ridiculed--that we ridicule it rather than try to 
confront it intellectually. Maybe both.
    Well, thank you very much, Mr. Chairman.
    Chairman Royce. Ridicule took down the KKK, or helped take 
it down.
    Mr. Brad Sherman of California.
    Mr. Sherman. Thank you. A couple of points I would want to 
make from the ranking member's opening statements.
    The administration has created the Center for Strategic 
Counter Terrorism Communications. In assessing its success, we 
have to turn to experts and your guesses because there is no 
way to count the number of people who might have joined a 
terrorist organization but for the fact that they were 
persuaded not to do so.
    The CSCC is--the administration now is turning that into 
the Global Engagement Center. The counter messaging provisions 
of Speaker Ryan's new national security action plan echo the 
administration's efforts and I think demonstrate 
bipartisanship.
    The budget is policy. Since 2013, the budget of this effort 
has grown from $5 million to a 2017 request for $21.5 million. 
Is that enough money, realizing that this is just one part of 
our antiterrorism effort?
    So I will ask all three witnesses. Is $21.5 million enough? 
Anybody think it is too much?
    Mr. Hughes. It depends on how they spend the money.
    Mr. Sherman. Obviously.
    Mr. Hughes. Yes, I----
    Mr. Sherman. Give me a quantitative answer. We have to move 
on to another question. Anybody have a quantitative?
    Mr. Lobel. We should be spending a lot more money on all of 
these efforts. I think when we look at the ideological 
challenge and the importance of quote, you know, ``soft power'' 
in addressing it, I think it would be clear that there is a 
great mismatch between the challenge and the resources being 
allocated overall.
    Mr. Sherman. Okay. I am going to go back to this theme that 
we need to understand Islam at the State Department and the 
organizations that it funds. Just as one example, I was 
teaching my young daughter the Gettysburg Address, four score 
and seven.
    Now, you can translate that. Any Chinese scholar could 
translate four score and seven as meaning 87. But only someone 
who understood Christianity and as it was practiced in the 
United States at that time and the King James Bible would hear 
the echoes of religious thought in calling it four score and 
seven rather than 87.
    Are there people engaged in this effort, funded by the 
State Department, that can really hear the allusions to the 
similar echoed cadence of Islamic theology in the message 
that's going out? Or are these people who, when they hear four 
score and seven, translate that as 87 and figure that's the 
number between 86 and 88? Dr. Lobel.
    Mr. Lobel. I agree wholeheartedly that not only our 
Government but our country as a whole has not invested nearly 
enough in the kind of regional knowledge and expertise required 
to address this challenge. That includes an understanding of 
Islam.
    So that, to me, is the State Department and the rest of us. 
So, you know, when we look back at what was invested in Soviet 
studies probably in the first 15 or 20 years of the Cold War 
and compare it to where we are today we are failing and that is 
an important cause of the fail.
    Mr. Sherman. I want to go--I think both Dr. Neumann and Dr. 
Lobel have alluded to the idea that we need to get individuals 
involved and I would say even volunteers involved.
    The State Department needs 14 levels of review to send out 
a tweet. If you're an officially funded by the State Department 
grantee you only need six levels of review before you can send 
out a tweet.
    If you're a volunteer, you do a tweet. There are many 
millions of Muslims and people from Muslim countries--
Christians, Yazidis and others--who understand the culture who 
would like to be engaging.
    We need to give them the tools and the encouragement. I am 
not aware of any effort that said, you know, not just if you 
see something say something but dedicate 5 hours a week of your 
time.
    The other thing that's missing here is if you look at my 
Web browser and you see that I visited Islamic terrorist chat 
rooms, I probably don't go on the no-fly list. I am a member of 
this committee.
    My Muslim friends, their browser history has all--so we 
need a system by which people can register the fact that they 
are on our side, that they are trying to engage the terrorists, 
even provide a copy of what they are doing to some agency of 
government so that they feel free.
    Because I assume that any Muslim-American who engaged 
creatively one on one in a chat room would say some things that 
a prosecutor could put him in jail for.
    You've got to start with the idea of saying well, gee, 
maybe--I understand that maybe you're thinking of going to 
Syria and killing lots of people.
    Well, I know where you're coming from but have you thought 
about this? That might be an effective argument. It might also 
get you in front of a jury saying why did you tell somebody it 
is reasonable to even consider going to----
    So is--I assume our witnesses will confirm there is no 
organized way for someone who wants to volunteer in this cyber 
war to make sure they don't go to jail. Dr. Neumann.
    Mr. Neumann. No, there isn't, and one thing I wanted to 
highlight is the contrast between what I think needs to be done 
and what happened in the past with CSCC.
    So when CSCC said let us counter ISIL online propaganda 
they would produce a film, it would take a long time, a lot of 
people would have to approve and then eventually there would be 
a film coming out.
    Now imagine that instead YouTube was launching a 
competition and was saying, what's wrong with ISIS? You have 1 
week. The prize is an internship with Google. I can guarantee 
you there would be 5,000 student projects, volunteers, classes 
from across the country and beyond producing little videos.
    Now, of these 5,000, 80 percent would be really awful. 
Twenty percent would be okay and maybe 2 percent would go 
viral. That would still be a multiple of the output that CSCC 
has ever produced.
    It would not say State Department and it would be a lot 
more authentic and it would cost nothing. That's why $21 
million is an abstract figure. If those $21 million are being 
used to foster----
    Mr. Sherman. Google could just do this on their own because 
I will tell you right now whoever wins that contest is somebody 
Google wants as an intern.
    So maybe a few of us--maybe you could draft a letter for a 
few of us to endorse not only to Google but 10 others and let 
us try to get some internships.
    Mr. Lobel. I would just add very briefly that the 14 layers 
of review is exactly when you think about yes, there needs to 
be more money but how that money is spent, you wouldn't want to 
be spending it on 14 layers of review.
    You want it to be going to entities around the country that 
can really make a difference and are not as risk averse.
    Chairman Royce. We need to go to Daniel Donovan of New 
York.
    Mr. Donovan. Thank you, Mr. Chairman.
    It has not been credited to anyone yet but as we sat here 
within the last hour when the chairman gavelled in there has 
been a mass shooting in a movie theater in Germany where at 
least 25 people have been injured. No one has taken credit for 
that but it is remarkable that we are speaking about this issue 
now and this occurred during our hearing.
    I want to talk a little bit--my friend Brad Sherman spoke 
about prosecutors. I was a prosecutor for 20 years before I 
came to Congress and I remember in the days when gangs--street 
gangs used to recruit prospects for their gangs. And they could 
visualize--they could see the loner in the school yard. They 
could see the young person who had low self-esteem. They knew 
their target.
    How do the recruiters for ISIS and other violent extremists 
find these individuals on the Internet? Because you can't 
visually see this person in their basement who is on their 
computer and doesn't have any friends and is a loner, unlike 
the street gangs.
    How does this actually occur? How are they finding these 
individuals who are susceptible to being recruited? And I leave 
that to anyone.
    Mr. Hughes. Sure. The same way they do recruitment of gangs 
online actually nowadays, which is they are looking for 
individuals who have raised their hand only slightly so much, 
saying oh, well, what's going on in Syria or what about the 
Assad atrocities?--things like that.
    They realize they have--there is a well-established system 
of essentially spotting individuals to be drawn into it and 
once they are drawn in they are in essentially an ISIS echo 
chamber where they don't hear dissenting voices.
    So <greek-l>and  deg.the conversation runs from the 
boringly benign banter of everyday life to the violent images 
that we see on the nightly news.
    So they get a sense of community on there and so they talk 
on mainstream sites, on Twitter and places like that and then 
they move onto this one-on-one communication whether it be on 
Telegram or other platforms where they can have a more discreet 
conversation, figure out how that person's day was.
    It is a grooming process online, and a lot of these 
individuals are also asking for help, right. They are coming to 
known or suspected terrorists--people on the ground in Syria 
and Iraq--and saying, I am thinking about joining--what do you 
think about this?--what do I need to do when I get to Turkey?--
what are the four numbers I need to call?--what do I put in my 
backpack?--what do I not put in my backpack?--how do I cross 
Customs?
    It is essentially allowing a level of interactivity that we 
hadn't had in the past where if you're three girls from Denver 
like we had last year, three girls under the age of 18, and you 
want to figure out how to go to Syria, you're going on to 
Tumbler, you're reading about it and then you're connecting 
with a facilitator online who's working that process for you.
    Mr. Donovan. So the individual has to kind of let the 
recruiters know that I am a person who has curiosity?
    Mr. Hughes. It depends. So like I said before, we saw a 
case where a young woman was naive about her faith and was 
asking questions online and ISIS supporters realized she was 
naive and answered those questions in an innocuous way.
    So each case is particularly different. But there is a 
concerted recruitment effort online. Now, that has shifted in 
recent months away from the so-called caliphate and more toward 
maybe go to Libya or maybe do what you can where you are 
because of various reasons.
    Mr. Donovan. I understand it is a romance and it takes time 
to nurture these individuals. You hit on something I wanted to 
speak about in my remaining few minutes--the dark space, when 
they find someone who may be susceptible, who feels they want 
to belong to something that is greater than they, to have a 
purpose in life where they never had a purpose before.
    And once that recruiter realizes they have someone of that 
mindset they go into these dark spaces where we can't even 
follow them. Do you have any insight or any opinion of what 
government could do about that? I am on Homeland Security too 
and we struggle with that on a daily basis.
    Mr. Hughes. The issue of encryption and going dark is 
something that the FBI Directors talked about in numerous 
occasions. We do see that dynamic play out online and 
increasingly so.
    So think of the evolution of Internet recruitment 
radicalization this way. We used to have the good old days 5 or 
6 years ago where you had password-protected forums, about 12 
of them, and everyone raised their hand, you knew who they were 
and then went in there.
    That was--we could collect against that. Then they moved to 
Twitter and Facebook and places like that, more mainstream 
sites where you're able to get the fence sitters who--and able 
to push out the propaganda a little bit more.
    Now they have almost reversed course back over to more 
discreet platforms like Telegram, which allows for end-to-end 
encryption and other places like that and doesn't give law 
enforcement that view of it. It is a difficult dynamic.
    I don't have policy recommendations on an approach port. I 
would say that any approach that you did develop needs to be 
mindful of the technology evolving, meaning that if you asked 
me 2 years ago about Telegram I would have said don't worry 
about it right now--let us focus on Twitter and now here we are 
with Telegram.
    Mr. Donovan. Anyone else have a comment? Thank you very 
much. Mr. Chairman, I yield back the time that I no longer 
have.
    Chairman Royce. Well, let me just thank our witnesses here. 
We are going to be contacting you. There are some additional 
questions that we want to ask that we'd like your answers to.
    But I--returning to the observation made by Mr. Brad 
Sherman in terms of the necessity of the collaborative endeavor 
here I am sure that dialogue will continue and so you've got a 
second for your motion.
    But thank you all and we thank the members. We stand 
adjourned.
    [Whereupon, at 11:07 a.m., the committee was adjourned.]

                                     

                            A P P E N D I X

                              ---------- 
                              
                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

         

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
